No. 19-1026

IN THE

Oupreme Court of tjie Eniteb Optateszi
FORD MOTOR COMPANY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

BRIEF OF THE NATIONAL ASSOCIATION OF
MANUFACTURERS AND THE CHAMBER OF
COMMERCE OF THE UNITED STATES OF
AMERICA AS AMICI CURIAE IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,527 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 19, 2020.

Colin Casey Hog
Wilson-Epes Printing Co., Inc.

